                   AUDIT REPORT


Audit of NRC’s Safeguards Information Local Area Network and

                             Electronic Safe



                   OIG-13-A-16 April 1, 2013




All publicly available OIG reports (including this report) are accessible through

                              NRC’s Web site at:

            http:/www.nrc.gov/reading-rm/doc-collections/insp-gen
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  April 1, 2013




MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S SAFEGUARDS INFORMATION LOCAL
                            AREA NETWORK AND ELECTRONIC SAFE
                            (OIG-13-A-16)


Attached is the Office of the Inspector General’s (OIG) audit report titled Audit of NRC’s
Safeguards Information Local Area Network and Electronic Safe.

The report presents the results of the subject audit. Agency comments provided at the
March 20, 2013, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow-up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Team,
at 415-5911.

Attachment: As stated
                       Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



EXECUTIVE SUMMARY


   BACKGROUND

        The U.S. Nuclear Regulatory Commission (NRC) developed its
        Safeguards Information Local Area Network and Electronic Safe (SLES)
        system to store and manage electronic Safeguards Information (SGI)
        documents.

        SLES features two distinct components: a secure wireless Local Area
        Network (LAN) and an electronic safe (E-Safe) for SGI documents. The
        SGI LAN component is a network with a secure architecture and is
        dedicated for use in SGI data processing. The E-Safe component is a
        secure electronic data repository for SGI records. E-Safe users are able
        to create, capture, search, and retrieve data from this repository. The
        adoption of these various techniques into SGI operations was intended to
        ensure that E-Safe will contain all SGI created or received by NRC,
        thereby eliminating the need to maintain separate, individual collections of
        SGI.


   OBJECTIVE

        The audit objective was to determine if SLES meets its operational
        capabilities and applicable security controls.


   RESULTS IN BRIEF

        NRC has developed a secure electronic system to store SGI while also
        reducing paper SGI and the space needed to store SGI documents;
        however, opportunities exist for improvement. Specifically, the system (A)
        does not fully meet user needs and (B) uses inconsistent access rights.


   RECOMMENDATIONS

        This report makes recommendations to improve the agency’s SLES
        system. A list of these recommendations appears on page 21 of this
        report.




                                          i
                   Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



AGENCY COMMENTS

    At an exit conference on March 20, 2013, agency management stated
    their agreement with the findings and recommendations in this report.
    Agency management also provided supplemental information that has
    been incorporated into this report, as appropriate. As a result, the agency
    opted not to provide formal comments for inclusion in this report.




                                      ii
                     Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



ABBREVIATIONS AND ACRONYMS

       CFR – Code of Federal Regulations

       CD – Compact Disc

       DVD – Digital Versatile Disc

       E-Safe – Electronic Safe

       HSPD-12 – Homeland Security Presidential Directive 12

       IT – Information Technology

       LAN – Local Area Network

       NRC – U.S. Nuclear Regulatory Commission

       NSIR – Office of Nuclear Security and Incident Response

       OIG – Office of the Inspector General

       OIS – Office of Information Services

       SGI – Safeguards Information

       SLES – Safeguards Information Local Area Network and Electronic Safe




                                       iii
                           Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................................ i

        ABBREVIATIONS AND ACRONYMS ........................................................ iii

        I.      BACKGROUND .............................................................................. 1

        II.     OBJECTIVE .................................................................................... 7

        III.    FINDINGS ....................................................................................... 7

                A. SLES Does Not Fully Meet User Needs ..................................... 8

                B. Access Rights Are Inconsistent ................................................ 17

        IV.     CONSOLIDATED LIST OF RECOMMENDATIONS ..................... 21

        V.      AGENCY COMMENTS ................................................................. 22


        APPENDIX


        OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 23




                                                 iv
                                  Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



I.      BACKGROUND

                SLES Overview

                The U.S. Nuclear Regulatory Commission (NRC) developed its
                Safeguards Information Local Area Network and Electronic Safe (SLES)
                system to store and manage electronic Safeguards Information (SGI)1
                documents. SLES was created in response to the Commission's January
                2004 directive2 that staff "develop and implement a secure intranet
                capability that allows appropriate NRC staff to share safeguards and
                classified information3 internally in a secure and effective manner."

                SLES was created to meet the following business needs:

                    Provide a secure network for authorized users to access SGI
                    documents electronically.
                    Reduce the volume of SGI document storage space.
                    Act as a secure SGI records repository in compliance with National
                    Archives and Records Administration requirements.
                    Enable record and document management (i.e., add, store, search,
                    retrieve, collaborate, and disposition) of SGI in a centralized electronic
                    document management system.

                Prior to SLES, SGI was generated and maintained by NRC employees
                who were authorized as SGI custodians. These custodians used secure
                safes to control the information and ensure protection from unauthorized
                disclosure. While some electronic files were stored on compact discs
                (CD) and removable hard disks, most of the SGI documents were in paper
                (hardcopy) format. Regardless of format, SGI was stored in either lock
                bar cabinets or safes.4 Over time, managing SGI hardcopy, individual
                CDs, and files on removable hard disks in the secure lock bar cabinets

1
  SGI is a special category of sensitive unclassified information to be protected as authorized by Section
147 of the Atomic Energy Act. SGI concerns the physical protection of operating power reactors, spent
fuel shipments, strategic special nuclear material, or other radioactive material. While SGI is considered
sensitive unclassified information, its handling and protection more closely resembles the handling of
classified confidential information than other sensitive unclassified information.
2
  Staff Requirements Memorandum M040114A, "Briefing on the Status of OCIO Programs, Performance,
and Plans," dated January 30, 2004.
3
  Only SGI is stored in SLES; NRC does not have an electronic system for storing classified information.
4
  Lock bar cabinets are steel file cabinets with a combination lock that secures all of the file drawers.
Paper SGI is required to be stored in lock bar cabinets but may also be stored in safes with classified
information.
                                                     1
                                  Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



                had become increasingly difficult, which caused delays in locating,
                accessing, and sharing SGI with authorized staff. This led to NRC’s
                development and implementation of a secure intranet capability that would
                allow authorized NRC staff in the headquarters and regional offices to
                share SGI in a secure and effective manner.

                The Office of Nuclear Security and Incident Response (NSIR) began using
                SLES in 2008. In 2009, NRC validated the SLES architecture to ensure
                the scalability and security of the system prior to its deployment
                agencywide. SLES officially went “live” at NRC headquarters in January
                2010, and then on a staggered basis to the NRC regional offices and
                resident inspector sites, with full implementation by May 2012.

                SLES Features

                SLES features two distinct components: a secure wireless Local Area
                Network (LAN) and an electronic safe (E-Safe) for SGI documents. The
                SGI LAN component is a network with a secure architecture and is
                dedicated for use in SGI data processing. The SGI LAN essentially
                provides access to E-Safe via kiosk workstations, desktop terminals, or
                laptops.5 The E-Safe component is a secure electronic data repository for
                SGI records. E-Safe users are able to create, capture, search, and
                retrieve data from this repository. Records are captured in E-Safe through
                scanning paper copies, uploading documents from CDs and Digital
                Versatile Discs (DVD), and creating documents within the system itself.
                The adoption of these various techniques into SGI operations was
                intended to ensure that E-Safe will contain all SGI created or received by
                NRC, thereby eliminating the need to maintain separate, individual
                collections of SGI.

                E-Safe stores all SGI documents in “locked” electronic folders. NRC
                employees must follow a multistep process to obtain access to these
                folders and documents. First, the employee must create an SLES user
                account by submitting a form to the SLES help desk. Next, the
                employee’s branch chief must email the SLES help desk to specify which



5
 There are three different ways to access SLES depending on the user. Most users will access SLES via
one or two shared kiosk workstations within an office. Frequent SLES users may have their own SLES
desktop computer terminal. Finally, resident inspectors located at nuclear power plant sites are provided
an SLES laptop.
                                                     2
                                  Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



                documents the employee should be authorized to read. This authorization
                serves as the “need-to-know.”6 Finally, the SLES help desk assigns the
                employee to one or more user groups7 that have the ability to read those
                documents.

                SLES also provides features that do not involve E-Safe. The system
                contains electronic collaboration rooms where users can develop and edit
                SGI documents in a secure and protected environment, and it has a
                secure email function where users can email SGI documents using
                approved encryption protocols.

                SLES Security

                The SLES LAN is isolated from the NRC LAN, Internet, and all other
                networks to enhance security and prevent migration of SGI data off the
                SLES system. The system uses Virtual Private Network technology to
                ensure secure encrypted connections between remote locations. Security
                is further enhanced by using multi-factor authentication. Authenticating to
                SLES is done through an individual’s Personal Identity Verification card,8
                which extends security to SLES through a well-established, organization-
                wide identity verification infrastructure. Further, to access the E-Safe
                component of SLES, users must have an additional user identification and
                password.

                The SLES system is designed to provide data protection and availability
                through regular periodic server file backups and through a redundant
                secondary (“failover”) system at NRC’s Region IV office location. The
                purpose of the failover system is to ensure that the SLES system can
                remain available to users and that data would not be lost in the event that
                the primary system at NRC headquarters becomes nonfunctional. The
                failover site houses a duplicate set of servers that contain a mirror image
                of the primary site data servers. In an event where the headquarters site

6
  „„Need-to-know‟‟ means a determination by a person having responsibility for protecting SGI that a
proposed recipient’s access to SGI is necessary in the performance of official, contractual, licensee,
applicant, or certificate holder employment.
7
  All user groups are assigned to specific folders that contain SGI documents. Users assigned to a user
group get access rights to all folders and documents assigned to that user group.
8
  On August 27, 2004, President George W. Bush signed Homeland Security Presidential Directive 12
(HSPD-12), “Policy for a Common Identification Standard for Federal Employees and Contractors.”
HSPD-12 directed the implementation of a new standardized badging process, which was designed to
enhance security, reduce identity fraud, and protect the personal privacy of those issued Government
identification.
                                                     3
                                   Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



                  is not available for the system users, the secondary site would become the
                  primary. See Figure 1 for a depiction of the SLES network topology map.9


                                    Figure 1: SLES Network Topology Map




                  Source: NRC




9
    The failover site is depicted by the green box labeled “COOP SLES Server Room.”
                                                      4
                                 Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



                Program Offices

                On October 1, 2011, NRC transitioned ownership of the SLES system
                from NSIR to the Office of Information Services (OIS). Under this
                arrangement, OIS manages the entire hardware infrastructure and tasks
                associated with the system’s operating maintenance for the secure LAN
                and application. OIS is also responsible for project management, help
                desk support, system operations, and maintenance of SLES. NSIR, the
                creator and original SLES system owner, manages the E-Safe software
                application that is hosted on the servers maintained by OIS. NSIR
                handles E-Safe issues dealing with the system’s business process, for
                example, adding users to the application, maintaining records taxonomy,
                and giving permission to access SGI folders or documents. NSIR is
                essentially responsible for the SGI data within SLES.10 See Figure 2 for
                more information on OIS and NSIR SLES roles and responsibilities.

                Figure 2: OIS and NSIR SLES Roles and Responsibilities




                Source: NRC




10
  It should be noted that the SGI data is not owned by the SLES system or NSIR, but rather by the
respective departments/authors that it came from.
                                                    5
                                    Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe




                  Program Resources and Costs

                  NRC receives SLES support from a nine-member contractor team11 under
                  a single contract for two types of services: (1) Operations and
                  Maintenance and (2) Records Management. After the system ownership
                  transition from NSIR to OIS, OIS assumed the Operations and
                  Maintenance (help desk and operations) responsibility from NSIR while
                  NSIR maintained control of the Records Management (paper SGI
                  scanning into SLES) portion. OIS has committed .33 full-time equivalent
                  personnel to SLES; NSIR removed all full-time equivalent personnel from
                  SLES after it transitioned system ownership to OIS in 2011.


                  NRC paid approximately $5.3 million to develop SLES and pays
                  approximately $1.2 million annually for its SLES contract. Of this amount,
                  roughly $831,000 goes to the support contractor, $315,000 is applied to
                  software, and $78,000 is targeted for hardware.




11
     The contractor team consists of seven full-time and two part-time members.
                                                       6
                          Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



II.    OBJECTIVE

           The audit objective was to determine if SLES meets its operational
           capabilities and applicable security controls. The report appendix contains
           information on the audit scope and methodology.


III.   FINDINGS

           NRC has developed a secure electronic system to store SGI while also
           reducing paper SGI and the space needed to store SGI documents;
           however, opportunities exist for improvement. Specifically, the system (A)
           does not fully meet user needs and (B) uses inconsistent access rights.




                                             7
                                  Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



A.              SLES Does Not Fully Meet User Needs

                Information Technology (IT) Systems should improve agency productivity
                and efficiency while reducing paper.12 SLES was created to allow NRC
                staff to share SGI in a secure and effective manner. However, SLES does
                not fully meet user needs, and while it has reduced the amount of SGI
                paper documents maintained by NRC offices, a significant amount still
                remains. This has occurred because NRC management has not given
                SLES high priority, specifically:

                        There is no single individual who serves as a business
                        “champion”13 for integrating SLES into the NRC business process.
                        NRC lacks adequate communication channels to discuss system
                        issues between SLES staff and its users.

                As a result, the system is not being used to its potential and more
                resources must be used to maintain paper SGI records, possibly resulting
                in fiscal waste.

                Information Technology Systems Should Improve Productivity and
                Efficiency While Reducing Paper

                IT Systems should improve agency productivity and efficiency while
                reducing paper. The Paperwork Reduction Act of 1995 states that Federal
                agencies should ensure that IT is acquired, used, and managed to
                improve performance of agency missions. The act also promotes the use
                of IT by agencies to improve the productivity, efficiency, and effectiveness
                of agency programs. Finally, it states that agencies should minimize the
                cost of the creation, collection, maintenance, use, and dissemination of
                information, including the use of technology to reduce information
                collection burdens.

                According to an NRC Staff Requirements Memorandum from January
                2004, the Commission directed that staff "develop and implement a secure
                intranet capability that allows appropriate NRC staff to share safeguards
                and classified information internally in a secure and effective manner."

12
  Paperwork Reduction Act of 1995.
13
  A champion is a person who voluntarily works to facilitate the adoption, implementation, and success of
a cause, policy, program, project, or product.


                                                     8
                                  Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe




                SLES Is Not Meeting User Needs and a Large Amount of Paper SGI
                Still Remains

                SLES does not fully meet user needs. Based on interviews with 26 active
                SLES users, auditors identified the following common themes:

                        SLES official folder and document organization is confusing and not
                        intuitive – Fourteen users commented that finding documents in the
                        system is difficult or that the folder and document organization
                        within SLES is poorly organized and categorized. Users have
                        remarked that unless they know the NS number14 of the document
                        they are looking for, they may not be able to locate the documents
                        within SLES. Moreover, many of the folders in SLES are empty.
                        The Office of the Inspector General (OIG) reviewed 492 folders of
                        the 5,699 folders within SLES, and found that 55 percent (272
                        folders) of the folders reviewed contained no documents at all.

                        The search function is poor as it is limited to “read” permission only
                        – SLES is arranged so that users with only “browse” permission
                        cannot see any results (document titles) when conducting a formal
                        search through the SLES search engine.15 To see results when
                        conducting formal document searches, users must have read
                        permission.16 This is a problem because the default setting for all
                        SLES users is set at browse permission, and even for those users
                        with read permission, search results can still be extremely limited
                        because users can only see search results to folders for which they
                        have read permission.

                        For example, if users had read permission to a folder containing
                        Beaver Valley security information, the users would be able to
                        search for any documents in the Beaver Valley folder and view all
14
   An NS number is a specific number assigned to every document in SLES, similar to the ML number in
NRC’s Agencywide Documents Access and Management System (ADAMS).
15
   If users have “browse” permission, they are able to see document titles only if they manually scroll
through the entire inventory of SLES documents. Users with browse permission cannot do an actual
search to identify a particular document.
16
   Permissions control what a user can do. Examples of SLES permissions include browse, read, and
edit. Browse, the default user permission, simply allows users to scroll through SLES and view folder and
document titles; read allows users to open and read the contents of all documents within a folder; and edit
allows users to edit documents. Users must first obtain the need-to-know prior to receiving read or edit
permissions.


                                                     9
        Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



of the results. But if the same users needed information located in
another folder where they only had the default browse permission
(e.g., Independent Spent Fuel Storage Installations stored on
Beaver Valley property), they would not see any search results
because they do not have read permission for Beaver Valley
Independent Spent Fuel Storage Installations; therefore, users may
think the documents do not exist in SLES. In essence, if users
have not already obtained the need-to-know to read a document,
they will not even be able to search for it.

SLES is slow to upload documents – Security inspectors typically
upload into SLES the licensees’ security plans and other plant
information that are provided by licensees on CDs. Depending on
the amount of information provided, uploading the CDs may take
several hours, or even days, to complete. Inspectors are required
to be present at the workstation during the entire upload process
since they are dealing with SGI, and this upload process must
occur at a shared kiosk workstation because personal SLES
desktop terminals do not accept removable media such as CDs.

Nuclear power plant based resident inspectors’ SLES laptops are
not set up/functional – Several regional inspectors based in
regional offices complained that many resident inspectors either
had their SLES laptops stored in a desk and not set up, or they had
the laptops set up but not functioning because of expired user
certificates due to non-use. Resident inspectors claimed the
primary reason for this was because they rarely work with SGI;
however, non-functioning SLES laptops can inhibit visiting regional
inspectors because the non-functionality precludes easy electronic
access to SGI and it encourages the regional inspectors to mail and
use paper SGI when conducting power plant inspections.

Several security inspectors at NRC headquarters told auditors that
they would like to have a portable device, such as a tablet, to store
and carry SGI with them during their power plant inspections. The
tablet would not need to have access to the Internet or any
networks, but would be able to hold previously downloaded SGI in
electronic format. OIG notes that this may provide more security
than hand-carrying SGI and would likely make the inspection
process more efficient. An OIS IT specialist reported that there is

                          10
                                 Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



                        currently a tablet pilot underway in NRC’s Region II office, but at
                        this time there are no plans to involve SGI in this pilot.

                        It can be difficult to read maps and drawings in SLES – Security
                        inspectors will often get electronic maps and drawings from
                        licensees as part of their security documentation. These items are
                        difficult to read at times, due to either being too small to see on the
                        SLES monitor or too large to easily view everything on one page.
                        Therefore, inspectors typically must print these items.

                        SLES contains no audio capabilities – There are times when
                        licensees provide security inspectors CDs or DVDs that contain
                        video/audio presentations. While SLES has video capability, it
                        cannot play any sound.

                 Another goal for the development of SLES was to reduce the amount of
                 SGI paper documents and the overall volume of SGI document storage
                 space. While SLES has reduced a large volume of SGI paper documents,
                 there still remains a large amount within the agency. For example:

                        All offices provided NSIR their SGI documents to be input into
                        SLES; however, certain offices continue to maintain paper copies
                        as well. According to an Office of the Secretary staffer, the office is
                        to maintain their SGI documents as official records to meet National
                        Archives and Records Administration requirements. Additionally,
                        an enforcement specialist in one of NRC’s regional offices asserted
                        that regulations17 state that all unclassified SGI paper documents
                        related to enforcement actions that are not considered “significant”
                        must be kept at least 2 years.

                        Certain individuals hold on to their SGI documents because there is
                        no formal workflow process whereby users are notified when their
                        documents have been entered into SLES. Due to this uncertainty,
                        some people prefer to maintain a hard copy of documents they
                        submitted.

                        NRC regional offices still maintain SGI safes.



17
     NRC Comprehensive Records Disposition Schedule, NUREG-0910, Revision 4.
                                                   11
               Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



      NSIR maintains approximately 23 lock bar cabinets containing SGI.
      In addition, NSIR stores some SGI in General Services
      Administration-approved safes intended for classified information.

      Within NRC headquarters, an “OIS Vault” contains roughly 375
      cubic feet of NRC’s confidential documents, including SGI. The
      vault, a locked room approximately the size of a standard
      conference room, once served as the official storage area for the
      agency’s sensitive documents prior to the creation of the
      Agencywide Documents Access and Management System and
      SLES. It is unknown exactly how many SGI documents are stored
      in the vault, although OIS management estimates that roughly one-
      half to three-fourths of the documents within the vault are SGI.

While the agency still maintains a large amount of SGI paper documents,
NSIR nonetheless has made progress in reducing the overall volume of
SGI paper documents. Since 2010, NSIR has removed over 80 SGI lock
bar cabinets from its office space alone. In addition, while the regional
offices still maintain some SGI cabinets or safes, regional staff claim the
amount of SGI paper documents and SGI lock bar cabinets has been
greatly reduced since NSIR began its paper reduction efforts. NSIR is still
actively trying to eliminate SGI paper documents and lock bar cabinets
and is currently teaming up with OIS to address the OIS vault in the near
future.

SLES Is Not a High Priority

SLES has not fully met its users’ needs because SLES has not been given
a high priority by NRC management. Specifically:

          There is no single individual who serves as a business
          champion for integrating SLES into the NRC business process.
          The communication channels to discuss system issues between
          SLES staff and its users are insufficient.

No SLES Business Champion

While OIS and NSIR are both involved with SLES, there is no single
individual who serves as a business champion for SLES and its


                                 12
                                   Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



                 processes. OIS is responsible for the IT and technical aspects of SLES,
                 but business processes and policy are not under its purview. This
                 responsibility falls under NSIR; however, the individual from NSIR who
                 managed the system prior to its transfer to OIS is no longer employed by
                 NRC. While this former NSIR employee continued to oversee SLES
                 following its transfer to OIS, this was done on a strictly voluntary basis.
                 After SLES was transferred to OIS, NSIR staff claim they provided
                 guidance to OIS but technically no longer had any direct day-to-day SLES
                 responsibilities; the office relies on its contractor to fulfill its records
                 management responsibilities. A separate division within NSIR handles
                 SGI and its policies, but its core duties do not include SLES.

                 As NSIR and OIS are two distinct entities involved with SLES, there is no
                 clear reporting structure that places someone in charge of – and who
                 understands – both the IT and the business policy side of SLES. As an
                 example, one possible solution identified by OIG to expedite uploads into
                 SLES could be to change some of the existing thin client kiosks to fat
                 clients18 for users who do a large amount of SGI uploading from CDs. An
                 OIS official stated that this is theoretically possible, but it lacks the
                 independent authority to make this change due to physical security
                 concerns with fat client machines. Such a move would require not only
                 upper management approval, but NSIR’s involvement as well.

                 Another issue is that many people have yet to embrace the use of SLES,
                 and because they are not required to use the system, they continue to
                 work with SGI paper documents. As noted earlier in the report, security
                 inspectors will often mail SGI to power plants prior to their inspections for
                 their use, and individuals and offices are often permitted to maintain their
                 SGI paper documents after the documents have been uploaded into
                 SLES. Additionally, SLES is not used for any formal concurrence process
                 involving SGI; only SGI paper documents are used for this purpose.



18
  All SLES kiosks are composed of thin clients. A thin client is a computer which depends heavily on
some other computer (its server) to fulfill its traditional computational roles. Thin clients are barebone
computer setups that do not contain any processors or data storage devices – they can be something as
minimalistic as a monitor with a keyboard or mouse. A fat client is a networked computer with most
resources installed locally, rather than distributed over a network as is the case with a thin client. Some
advantages of fat clients are a reduced load on the server and an ability to work independent of the
central server. A fat client can also run faster than a thin client since fat clients store many applications
locally. However, thin clients are easier to protect from security risks and offer lower maintenance costs.



                                                     13
               Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



Communication Is Insufficient

Communication channels to discuss system issues between SLES staff
and its users are also inadequate. In the earlier years of SLES while the
system was still under NSIR’s ownership, NSIR would issue periodic
newsletters providing updates about the system. Furthermore, users
could join the E-Safe Enhancement Working Group to discuss system
issues on a biweekly basis. The newsletters and working groups have
since been discontinued and many users are unaware of how to voice
their concerns with the system. When OIG relayed the common user
complaints to OIS, OIS staff were unaware of some of these system
issues. In addition, one of the SLES regular users said the subject matter
experts, the individuals who created or owned the SGI, were never
consulted as to how the documents should be titled or categorized. This
led to extra difficulty in locating files within SLES. When he later tried to
approach the SLES team about this matter, he said the team was not
receptive to his recommendations or ideas.

OIG notes that information system change control boards are considered
a best business practice for ensuring information system stakeholders’
concerns are raised and analyzed over a system’s lifecycle so that
necessary improvements can be made to the system to meet user needs.
National Institute of Standards and Technology Special Publication 800-
128 defines a change control board as a group that represents various
organization perspectives that has the collective responsibility and
authority to review and approve changes to an information system.
According to Special Publication 800-128, the board is a check and
balance on configuration change activity, assuring that changes are held
to organizationally defined criteria (e.g., scope, cost, impact on security)
before being implemented.

Though the communication channels between SLES staff and its system
users need improvement, it should be noted that the majority of SLES
users remarked that they are very pleased with the SLES help desk and
the overall support received. An OIS employee also stated that OIS would
always try to address any user’s concerns as long as OIS is aware of the
problem. For example, during the course of this audit, OIG learned that
NRC’s Technical Training Center did not have access to SLES even
though it provides training to security inspectors. OIG notified OIS of the



                                 14
                                 Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



               issue and OIS immediately contacted individuals at the Technical Training
               Center to discuss the matter. OIS has since approved the change and
               anticipates installing four SLES workstations at the Technical Training
               Center by the end of March 2013.

               SLES Not Utilized To Its Potential, Possibly Resulting in Fiscal Waste

               SLES is not used to its potential and more resources must be used to
               maintain paper records possibly resulting in fiscal waste. OIS staff
               reported that SLES has roughly 620 total user accounts, but
               approximately only 50 “regular”19 SLES users. Furthermore, according to
               a Property Management Specialist in the Office of Administration, each
               lock bar cabinet/safe that stores SGI costs $1,054, and the safes, in
               particular, are “flying off the shelves.” Using SLES on a consistent basis
               would promote efficiency and would likely reduce paper, printing, mailing,
               and storage costs.

               Recommendations

               OIG recommends that the Executive Director for Operations:

               1. Designate an SLES business champion from senior management to
                  integrate SLES into NRC business practices.

               2. Establish a formal workflow process, similar to that used for the
                  Agencywide Documents Access and Management System, to
                  communicate the status of SLES (E-Safe) file uploads to SGI owners.

               3. Evaluate and update the current folder structure to meet user needs.

               4. Publish a folder guide to help users identify where SGI is stored within
                  SLES.

               5. Develop and implement a retrievable communication plan to
                  communicate SLES updates, changes, etc., and to invite user
                  feedback.




19
  OIS termed a regular user as someone who logged into SLES at least 4 times in the previous 30 days.
This does not include administrator accounts used by support personnel.
                                                   15
              Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



6. Develop and implement a change control process to routinely evaluate
   and implement any changes to SLES. Include members from the
   technical (OIS) and policy (NSIR) sides of SLES, as well as a
   representative from a Regional office, and gather user concerns from
   the SLES community.




                                16
                    Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



B.   Access Rights Are Inconsistent

     Federal regulations mandate security controls to protect systems and
     networks from inappropriate access and unauthorized use. SLES access
     rights do not consistently meet the intent of the SGI “need-to-know”
     requirement or an information system’s “least privilege” principle because
     there is no standard process for granting SGI access to individuals or for
     verifying user access rights. Providing SLES users access rights that
     exceed an individual’s need-to-know or go beyond organizational business
     needs increases the risk that SGI could be compromised. Additionally, not
     having a formal policy in place limits access to some individuals who may
     need SGI access to effectively do their jobs.

     The “Need-To-Know” Requirement and “Least Privilege” Principle

     Federal regulations mandate security controls to protect systems and
     networks from inappropriate access and unauthorized use. Per Title 10,
     Code of Federal Regulations, Section 73.2 (10 CFR 73.2), “need-to-know”
     means a determination by a person having responsibility for protecting
     SGI, such as the originator of the material, that a proposed recipient’s
     access to SGI is necessary in the performance of official, contractual,
     licensee, applicant, or certificate holder employment. Additionally, 10 CFR
     73.22 requires that anyone requesting access to SGI must meet this need-
     to-know requirement. Except as the Commission may otherwise
     authorize, no person may disclose safeguards information to any other
     person.

     Federal Government internal controls standards for information systems
     recommend access security controls to protect systems and networks
     from inappropriate access and unauthorized use. Specifically, the
     National Institute of Standards and Technology Guidance Special
     Publication 800-53 recommends the “least privilege” principle. Simply put,
     the principle of least privilege requires that a user be given no more
     privilege than necessary to perform a job. Ensuring least privilege
     requires identifying what the user's job is, determining the minimum set of
     privileges required to perform that job, and restricting the user to a domain
     with those privileges and nothing more.




                                      17
               Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



SLES Folder Access Is Inconsistent With Need-To-Know
Requirement and Least Privilege Principle

SLES access rights do not consistently meet the intent of the SGI need-to-
know requirement or an information system’s least privilege principle. As
mentioned in the background section of this report, SLES users gain
access to SGI documents by having their branch chief contact the SLES
help desk and providing this authorization. However, this does not align
with standard SGI policy stated in the Code of Federal Regulations which
states that the person responsible for protecting the SGI, such as the
document owner, is responsible for providing the need-to-know
authorization. An NSIR staff member responsible for standard SGI policy
told OIG he was unaware that the SLES policy was different from the
regulation until OIG brought it to his attention. He remarked that this
discrepancy could be an issue because a branch chief technically does
not have the authority to grant need-to-know access since the branch
chief is not the originator or possessor of the document. He agreed that
the SLES policy is not consistent with the NRC Management Directives or
the regulation. In essence, SLES allows users to gain access to SGI
without contacting the protector or owner of the information.
The least privilege principle may also be violated if users receive access
to folders and documents simply by belonging to a user group. As
mentioned in the background section of the report, SLES stores all SGI
documents in folders with other related SGI documents. To receive
access to a particular folder, users must be part of a user group with read
permission to that folder. However, user groups may also have access to
several different folders within SLES.

Therefore, when users need access to a given document, they receive
access to all documents within that particular folder as well as to several
other folders they may not need. Essentially, users receive access to SGI
documents based on the user groups they belong to and not based on the
principle of accessing only the information they need to perform their jobs.

While several SLES users may have access to documents they may not
need, a common complaint by users – especially by those in the regions –
is that they do not readily have access to documents they do need in
SLES, and that the branch chief approval process is inefficient. One
resident inspector claimed that he could not access any SLES documents
related to his own power plant without first getting approval from his offsite

                                 18
                                  Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



                branch chief. Until this is changed, he said he would not use SLES
                because it is a major inconvenience. He stated that he has to “jump
                through hoops” to get the necessary approval to access his own plant’s
                documents and that it was simply easier to go to the licensee’s safe and
                view SGI documents there.

                Several users commented that getting the approval to access SLES
                documents is sometimes untimely and burdensome depending on the
                availability of the branch chief or how long it may take the branch chief to
                contact the SLES help desk. Since the process is not always efficient,
                some users claim they simply go directly to the licensee or contact
                someone in NSIR to obtain access to documents in SLES.

                There Is No Standard Process for Granting or Verifying Access to
                SGI

                SLES access rights do not consistently meet the intent of the SGI need-to-
                know requirement or an information system’s least privilege principle
                because there is no standard process for granting SGI access to
                individuals or for verifying user access rights. Since there are no owners
                of SGI folders or documents within SLES,20 user access is provided rather
                haphazardly by the SLES help desk. The complicated system setup of
                assigning individuals to user groups with specific permissions to folders
                containing SGI does not allow for the need-to-know requirement and least
                privilege principle to be easily followed. While the SLES help desk
                provides access to SGI, it is only doing as instructed by the individual
                branch chief (who is simply acting on behalf of each requesting user).
                And although the help desk and SLES program in general are run by OIS,
                OIS is not familiar with – or responsible for – the SGI need-to-know
                policies; this responsibility belongs to NSIR.

                NRC also lacks procedures to conduct a periodic review of user folder
                access. After reviewing SLES user records, OIG interviewed 27 NRC
                employees who had read rights to folders within SLES. Of the 27
                interviewed, 4 claimed that they had read rights to more folders than they
                needed and 18 stated they did not need access to SLES at all.



20
   Due to the sensitive nature of the information, there are only two SLES folders that have an actual
folder owner: Target Sets and Force on Force, which are overseen by an individual in NSIR. Only the
assigned folder owner can make the need-to-know determination when users request access.
                                                    19
                                  Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



                Furthermore, eight SLES user accounts belonged to people no longer
                employed by NRC.21 In sum, there was no process to identify users who
                no longer needed access to SLES or who may have only required limited
                access.

                SGI Could Be Compromised

                Granting SLES users access rights that exceed individual or
                organizational business needs increases the risk that SGI could be
                intentionally or accidentally compromised. Tighter enforcement of the
                need-to-know requirement and least privilege principle to NRC staff that
                use SLES would provide an automated control to prevent possible data
                loss. On the other hand, rules should not be so strict that they limit NRC
                staff from effectively conducting their jobs. By having a formal policy in
                place that takes into account the user’s needs and responsibilities, NRC
                staff may be able to use SLES more effectively while limiting security
                risks.

                Recommendation

                OIG recommends that the Executive Director for Operations:

                7. Develop a structured access process that is consistent with the SGI
                need-to-know requirement and least privilege principle. This should
                include:

                             Establishing folder owners within SLES and providing the
                              owners the authority to approve the need-to-know
                              authorization (as opposed to branch chiefs).
                             Conducting periodic reviews of user access to folders.
                             Developing a standard process to grant user access.




21
  In the cases of ex-NRC staff still having SLES accounts, the risk is mitigated because a Personal
Identity Verification card is required to log into SLES. Employee exit procedures are in place to ensure
that employees surrender their Personal Identity Verification cards at the conclusion of their NRC
employment.
                                                    20
                        Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

             1. Designate an SLES business champion from senior management
                to integrate SLES into NRC business practices.

             2. Establish a formal workflow process, similar to that used for the
                Agencywide Documents Access and Management System, to
                communicate the status of SLES (E-Safe) file uploads to SGI
                owners.

             3. Evaluate and update the current folder structure to meet user
                needs.

             4. Publish a folder guide to help users identify where SGI is stored
                within SLES.

             5. Develop and implement a retrievable communication plan to
                communicate SLES updates, changes, etc., and to invite user
                feedback.

             6. Develop and implement a change control process to routinely
                evaluate and implement any changes to SLES. Include members
                from the technical (OIS) and policy (NSIR) sides of SLES, as well
                as a representative from a Regional office, and gather user
                concerns from the SLES community.

             7. Develop a structured access process that is consistent with the SGI
                need-to-know requirement and least privilege principle. This should
                include:
                     Establishing folder owners within SLES and providing the
                       owners the authority to approve the need-to-know
                       authorization (as opposed to branch chiefs)
                     Conducting periodic reviews of user access to folders.
                     Developing a standard process to grant user access.




                                          21
                       Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



V.   AGENCY COMMENTS


        At an exit conference on March 20, 2013, agency management stated
        their agreement with the findings and recommendations in this report.
        Agency management also provided supplemental information that has
        been incorporated into this report, as appropriate. As a result, the agency
        opted not to provide formal comments for inclusion in this report.




                                         22
                      Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



                                                                                        Appendix


OBJECTIVE, SCOPE, AND METHODOLOGY

        OBJECTIVE
        The audit objective was to determine if SLES meets its operational
        capabilities and applicable security controls.

        SCOPE
        The audit focused on reviewing the SLES system and ensuring it meets
        user needs while complying with security requirements. We conducted
        this system audit at NRC headquarters from July 2012 through December
        2012. Internal controls related to the audit objective were reviewed and
        analyzed. Throughout the audit, auditors were aware of the possibility or
        existence of fraud, waste, or misuse in the program.

        METHODOLOGY
        OIG reviewed relevant Federal regulations and internal/external guidance
        including:

           -   Code of Federal Regulations, Title 10, Part 73, Section 22,
               “Protection of Safeguards Information: Specific Requirements.”
           -   The Paperwork Reduction Act of 1995.
           -   National Institute of Standards and Technology Special Publication
               800-53, “Recommended Security Controls for Federal Information
               Systems and Organizations.”
           -   A Staff Requirements Memorandum M040114A, "Briefing on the
               Status of OCIO Programs, Performance, and Plans.”
           -   Management Directive 12.7, “NRC Safeguards Information Security
               Program.”
           -   National Institute of Standards and Technology Special Publication
               800-128, “Guide for Security-Focused Configuration Management
               of Information Systems.”
           -   OIG-12-A-12, “Audit of NRC’s Protection of Safeguards
               Information.”

        Auditors also used the SLES system and reviewed hundreds of SLES
        folders, user groups, user names, and permissions in conducting data
        analysis and identifying any possible trends.



                                        23
               Audit of NRC’s Safeguards Information Local Area Network and Electronic Safe



At NRC headquarters, in Rockville, Maryland, auditors interviewed NSIR
and OIS staff, including contractors assigned to both NSIR and OIS, to
gain an understanding of their roles and responsibilities related to the
SLES system. Auditors also conducted numerous telephone interviews of
NRC regional staff, resident inspectors, and NRC headquarters staff and
management who were listed as SLES users. Auditors viewed a
demonstration of the SLES system and also witnessed a failover test
conducted by NSIR illustrating the redundant features of SLES.

We conducted this performance audit in accordance with generally
accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

The audit work was conducted by Beth Serepca, Team Leader; Rebecca
Underhill, Audit Manager; Larry Vaught, Senior Auditor; and Michael Blair,
Senior Management Analyst.




                                 24
